OIG Investigative Reports, Washington DC., June 04, 2012 -Former American Samoan Department of Education Employee Sentenced to 25 Months in Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
Office of Public Affairs
FOR IMMEDIATE RELEASE
Friday, June 04, 2012
Former American Samoan Department of Education Employee Sentenced to 25 Months in Prison
WASHINGTON – A former official with the American Samoan Department of Education was sentenced to 25 months in prison today for his role in a bribery scheme, Assistant Attorney General Lanny A. Breuer of the Justice Department's Criminal Division announced.
Gustav Nauer, 47, was sentenced by U.S. District Judge David Alan Ezra in the District of Hawaii.  Nauer was also ordered to pay $100,000 in restitution to the American Samoa Department of Education (ASDOE) and to serve three years of supervised release following his prison term.
According to court documents, Nauer worked as the head of the School Bus Division for the ASDOE until December 2010.  In that position, Nauer was responsible for identifying repairs and parts required by school buses operated by ASDOE.
Nauer admitted that he conspired with another ASDOE official, Paul Solofa, to purchase "phantom" school bus parts that would never be delivered and actual school bus parts at inflated prices, all from a specific company.  In exchange for this lucrative business, the bus parts company agreed to pay back most or all of the fraudulently obtained money to Nauer and Solofa in cash bribes to influence and reward Nauer and Solofa.  Specifically, Nauer admitted that, from January 2003 until October 2006, he and Solofa received envelopes of cash totaling approximately $300,000.
In January 2012, Solofa was convicted by a jury in Washington, D.C., of witness tampering and obstruction of justice.  Solofa is scheduled to be sentenced on June 8, 2012.
This case is being prosecuted by Trial Attorney Timothy J. Kelly of the Public Integrity Section in the Justice Department's Criminal Division.  The investigation is being conducted by the FBI, the Department of Interior Inspector General and the Department of Education Inspector General.
12-714
Top
Printable view
Last Modified: 06/15/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov